No. 19-554
In the

Supreme Court of the United States
50 Murray Street Acquisition LLC,
Petitioner,
v.
John Kuzmich, et al.,
Respondents.
On Petition for a Writ of Certiorari to
the Court of A ppeals of New York

BRIEF IN OPPOSITION
Serge Joseph
Himmelstein, Mcconnell,
Gribben Donoghue
& Joseph LLP
15 Maiden Lane
New York, New York 10038
(212) 349-3000

Robert S. Smith
Counsel of Record
A nil Vassanji
Friedman K aplan Seiler
& A delman LLP
Seven Times Square
New York NY 10036-6516
(212) 833-1100
rsmith@fklaw.com

Counsel for Respondents
292809

A
(800) 274-3321 • (800) 359-6859

i
QUESTION PRESENTED
The federal question on which petitioner seeks this
Court’s review was neither presented to nor decided by
the New York Court of Appeals, which only decided a
question of state law interpretation, which this Court lacks
jurisdiction to review. Properly characterized, the petition
(“Petition”) presents the following question:
Does the “notwithstanding” clause of Section
421-g(6) of New York Real Property Law, which
says that rent regulation shall be applicable
to certain apartments “[n]otwithstanding the
provisions of any local law for the stabilization
of rents or the emergency tenant protection
act of nineteen seventy-four”, prevent the
deregulation of those apartments under the
high-rent decontrol provisions of that local law
and statute?

1
STATEMENT OF THE CASE
The Petition here concerns the New York Court of
Appeals’ interpretation of a New York statute governing
the stabilization of rents in New York City apartments
and the application of that statute to claims that do not
implicate federal law, i.e., whether Petitioner, a landlord,
was permitted to charge rents for its apartments that
are inconsistent with New York rent stabilization laws.
The New York Court of Appeals construed the New York
statute at issue—New York Real Property Tax Law
(“NY RPTL”) § 421-g—to mean that any landlord, like
Petitioner, that received tax benefits from the State under
NY RPTL § 421-g was required by the statute to subject
its apartments to New York’s rent stabilization laws.
W hile the Petitioner may disag ree w ith that
interpretation, the Petition should be denied because it
does not involve any “important question of federal law”
that is either unsettled or that conflicts with decisions of
this Court, federal Circuit Courts, or state courts of last
resort. Nor does the Petition implicate any other suggested
basis for granting the Petition, as contemplated by Rule
10 of the United States Supreme Court Rules. Perhaps
more important, no federal question was presented to or
considered by the New York Court of Appeals. This Court
does not have jurisdiction to overrule the New York Court
of Appeals’ interpretation of a New York statute.
REASONS FOR DENYING THE PETITION
Respondents do not believe that an extensive
opposition to the Petition is necessary, and they make
this short submission primarily to clarify a single point:

2
no federal question was raised below or addressed by the
New York Court of Appeals, and no federal question is
properly raised by the Petition.
The only issue raised by the Petitioner below and
decided by the New York Court of Appeals was one of
statutory construction: namely, the meaning of NY RPTL
§ 421-g, as that section was adopted pursuant to New
York’s Lower Manhattan Revitalization Project, Chapter
4 of the Laws of 1995. Petitioner’s question presented
below was limited to:
Does Real Property Tax Law §421-g preempt
any provision in the local law for the stabilization
of rents that is inconsistent with the regulation of
covered dwelling units’ rents, and in particular
the luxury deregulation provision of Rent
Stabilization §26-504.2, despite countervailing
indicia in the statutory scheme, including the
existence of enumerated exceptions to luxury
deregulation in §26-504.2 that do not include
§421-g, and despite the history of §421-g and
related statutes?
The Petition here and Petitioner’s motion for
reargument below both acknowledge that this was a matter
of interpreting New York’s statute. See, e.g., Petition 13
(“In July 2017, the trial court awarded summary judgment
to Respondents, determining that they were ‘entitled to
a declaration’ that the luxury-decontrol provisions [of
New York’s rent stabilization laws] do not apply to their
Section 421-g apartments.”); id at 13-14 (noting that the
intermediate appeals court, “criticized the trial court for
overlooking basic principles of statutory construction”);

3
Petition App. 56a (“Upon finding the statute unambiguous,
the [New York Court of Appeals] majority opinion
proceeded to reject any ‘attempt by defendants and the
dissent to a contextually use [sic] legislative history to
“muddy clear statutory language,” and concluded that
§ 421-g can be read only to subject properties to the proregulatory, but not deregulatory, provisions of the rent
stabilization laws.’”). Other than in its procedurally flawed
motion for reargument to the Court of Appeals (discussed
below), Petitioner did not argue—either to the New York
Court of Appeals or in any New York trial or intermediate
appellate court—that the interpretation and enforcement
of RPTL § 421-g would violate Petitioner’s constitutional
rights, or that application of the New York statute in this
case would be unconstitutional.
Because the only federal issue now advanced by
Petitioner was neither properly raised in nor addressed by
the court below, this Court lacks jurisdiction. This Court
may review state judgments only when “the validity of a
statute of any State is drawn in question on the ground
of its being repugnant to the Constitution” or “where
any title, right, privilege, or immunity is specially set
up or claimed under the Constitution.” 28 U.S.C. 1257.
No federal constitutional issues have been drawn into
question or specially set up by the New York Court of
Appeals decision because Petitioner did not present any.
When reviewing state-court judgments under Section
1257, this Court (with rare exceptions not applicable here)
will “not consider a petitioner’s federal claim unless it was
either addressed by, or properly presented to, the state
court that rendered the decision.” Adams v. Robertson,
520 U.S. 83, 86 (1997) (per curiam). This Court may not
disrupt the New York Court of Appeal’s interpretation of

4
a New York statute. See, e.g., Hortonville Joint Sch. Dist.
No. 1 v. Hortonville Educ. Ass’n, 426 U.S. 482, 488 (1976)
(“We are, of course, bound to accept the interpretation of
[State] law by the highest court of the State.”).
Petitioner argues that it properly raised a federal
question below when—after the New York Court of
Appeals had already issued its decision—Petitioner filed a
motion for reargument which raised, for the first time, the
argument that Petitioner seeks to make here. According
to Petitioner, this was the “first logical opportunity” to
raise this argument. Petition 37. This is incorrect. One,
Petitioner’s attempt to inject a federal question into this
dispute on a motion for reargument was procedurally
flawed under New York law, as Respondents made clear
in their opposition to the motion for reargument below.
See App. 11a-12a (“[A] motion for reargument must be
limited to fact or law overlooked in respect of arguments
previously made. It is well-established that ‘reargument
is not available where the movant seeks only to argue
“a new theory of liability not previously advanced.”’”)
(citing New York state law cases). Two, the decision by
the New York Court of Appeals—which Petitioner now
claims constitutes a “taking”—was substantively identical
to a decision of the New York trial court in 2017, which
awarded summary judgment to Respondents regarding
the meaning and applicability of RPTL § 421-g. See
Petition 13. On appeal of that decision, however, Petitioner
did not make any constitutional “takings” argument, nor
did it preserve that argument (or any other argument
implicating a federal question) for appeal.
Petitioner also argues that, notwithstanding its
failure to raise a federal question below, the New York

5
Court of Appeals’ interpretation of a New York state
statute can constitute a judicial taking under Save the
Beach Renourishment, Inc. v. Florida Department
of Environmental Protection, 560 U.S. 702 (2010).
Respondents addressed Petitioner’s Save the Beach
argument in their Opposition to Petition’s Motion for
Reargument to the New York Court of Appeals, and
Respondents’ briefing on that point is included in the
appendix and Respondents incorporate it here. See App.
13a (“The majority’s Opinion here did not ‘take away’ or
‘deprive’ 50 Murray of any right. Rather, it corrected 50
Murray’s misinterpretation of RPTL § 421-g and clarified
that 50 Murray never had a right in the first place to
luxury rent decontrol apartments in a building receiving
an RPTL § 421-g tax abatement.”) (emphasis in original).
CONCLUSION
Respondents respectfully request that this Court
deny the Petition.
Respectfully submitted,
Serge Joseph
Himmelstein, Mcconnell,
Gribben Donoghue
& Joseph LLP
15 Maiden Lane
New York, New York 10038
(212) 349-3000

Robert S. Smith
Counsel of Record
A nil Vassanji
Friedman K aplan Seiler
& A delman LLP
Seven Times Square
New York NY 10036-6516
(212) 833-1100
rsmith@fklaw.com

Counsel for Respondents

APPENDIX

1a
Appendix TO MOTION FOR
Appendix — OPPOSITION
REARGUMENT of the COURT OF APPEALS
OF THE STATE OF NEW YORK, DATED
AUGUST 12, 2019
COURT OF APPEALS OF THE
STATE OF NEW YORK
New York County Clerk’s Index No. 155266/16
Appellate Division–Second Department
Docket No. 00078/18
JOHN KUZMICH, SANDRA MAY, JOSHUA
SOCOLOW, IGNATIUS NAVASCUES, KENDTRICK
CROASMUN, RISHI KHANNA, CAITLAN
SENSKE, JAMIE AXFORD, JONATHAN GAZDAK,
Suzy HEIMAN, MICHAEL GORZYNSKI, NIKESH
DESAI, HEIDI BURKHART, BEN DRYLIEPERKINS, KEIRON McCAMMON, LISA ATWAN,
JENNIFER SENSKE RYAN, BRAD LANGSTON,
ALEJANDRA GARCIA, LISA CHU, SCOTT REALE,
DAN SLIVJANOVSKI, SHIVA PEJMAN, LAURIE
KARR, ADAM SEIFER, ANAND SUBRAMANIAN,
DARCY JENSEN, ELIN THOMASIAN, HAZEL
LYONS, DAVID DRUCKER, HOWARD PULCHIN,
JIN SUP LEE, JENN WOOD, NICHOLAS
APOSTOLATOS, ALEX KELLEHER, BRIAN
KNAPP, JEFF RIVES, JASON LEWIS, LAURA
FIESELER HICKMAN, FRANKLIN YAP and
STEVEN GREENES,
Plaintiffs-Appellants,

2a
Appendix
– against –
50 MURRAY STREET ACQUISITION LLC,
Defendant-Respondent.
OPPOSITION TO MOTION FOR REARGUMENT
[TABLES INTENTIONALLY OMITTED]
PRELIMINARY STATEMENT
In this appeal, the Court was asked to interpret Real
Property Tax Law (“RPTL”) § 421-g and to determine
whether apartments located in buildings receiving tax
benefits pursuant to that section are eligible for luxury
rent decontrol under the Rent Stabilization Law (“RSL”).
In relevant part, RPTL § 421-g says,
Notwithstanding the provisions of any local
law for the stabilization of rents in multiple
dwellings or the emergency tenant protection
act of nineteen seventy-four, the rents of each
dwelling unit in an eligible multiple dwelling
shall be fully subject to control under such
local law, unless exempt under such local law
from control by reason of the cooperative or
condominium status of the dwelling unit, for
the entire period for which the eligible multiple
dwelling is receiving benefits pursuant to this
section . . . .

3a
Appendix
After considering RPTL § 421-g’s text, the statute’s
legislative history in the Assembly and Senate, nine
briefs from the parties and amici curiae, nearly fortyfive minutes of oral argument, and an 18-page dissent
by Chief Judge Fiore, six Judges of this Court agreed
that apartments in buildings receiving the RPTL
§ 421-g ta x abatement are not subject to luxury
deregulation (“Opinion”).
Now, Defendant-Appellant 50 Mur ray Street
Acquisition LLC (“50 Murray”) seeks to reargue the
issues the Court has already considered and decided.
Reargument is appropriate only where a court “overlooked
or misapprehended” controlling law or relevant facts. See
NY CPLR § 2221(d). And, although 50 Murray disagrees
with the majority’s interpretation of RPTL § 421-g, none
of 50 Murray’s three arguments in support of its motion
for reargument identify any binding precedent or relevant
facts that the Court overlooked or misapprehended.
First, 50 Murray asserts that RPTL § 421-g’s
legislative history renders the majority’s interpretation
of the statute “unsustainable.” But, 50 Murray cannot
dispute that RPTL § 421-g’s legislative history was a
primary focus of the nine briefs submitted to the Court,
that it was discussed at length during oral argument and
in the dissent, and that it is expressly addressed by the
Opinion—indeed, 50 Murray’s own Reargument Brief
quotes the majority’s rejection of 50 Murray’s argument
regarding RPTL § 421-g’s legislative history. The law is
well-settled that reargument is not “a vehicle to permit the
unsuccessful party to argue once again the very questions

4a
Appendix
previously decided.” Pro Brokerage, Inc. v. Home Ins.
Co., 99 A.D.2d 971, 971 (1st Dep’t 1984). That principle
applies here, and the Court should not permit 50 Murray
to rehash arguments regarding the legislative history of
RPTL § 421-g which have already been made and rejected.
Second, 50 Murray claims that reargument is
appropriate because the Court misinterpreted the words
“subject to control under” as used in RPTL § 421-g. As
with the statute’s legislative history, RPTL§ 421-g’s
text was front and center in the parties’ briefing, at oral
argument, and in the dissent, and is examined in detail in
the Opinion. 50 Murray identifies no controlling precedent
or relevant facts overlooked by the Court.
Third, 50 Murray argues for the first time in its
Reargument Brief that the Court’s interpretation of
RPTL § 421-g “raises serious constitutional problems”
under the United States Constitution’s Takings and Due
Process Clauses. Even putting aside that 50 Murray
cannot raise new arguments for the first time on appeal
(much less on a motion for reargument of an appeal), this
argument is completely without merit. The United States
Supreme Court has made clear that imposing limits on
the rents a landlord may charge for an apartment is not
a “taking” of the landlord’s property rights under the
Takings Clause. See, e.g., Yee v. City Of Escondido, 503
U.S. 519 (1992). And, this Court’s interpretation of RPTL
§ 421-g did not “take” or deprive 50 Murray of any right;
it only clarified that 50 Murray never had any right in the
first place to luxury decontrol apartments in a building
receiving an RPTL § 421-g tax subsidy.

5a
Appendix
For these reasons, and the reasons discussed below,
reargument is inappropriate and 50 Murray’s attempt to
relitigate issues already decided should be rejected.
ARGUMENT
I.
50 MURRAY HAS NOT MET THE
STANDARD FOR REARGUMENT
Under CPLR § 2221(d), reargument is permissible only
where a movant demonstrates that the court “overlooked
or misapprehended” some binding precedent or relevant
fact, and a motion for reargument “shall not include any
matters not offered on the prior motion.” See CPLR
§ 2221(d). Thus, a motion for reargument cannot be used
by an “unsuccessful party to argue once again the very
questions previously decided” or to “advance arguments
different from those tendered on the original application.”
Foley v. Roche, 68 A.D.2d 558, 567-68 (1st Dep’t 1979);
see also William P. Pahl Equip. Corp. v. Kassis, et al.,
182 A.D.2d 22, 27, 32 (1st Dep’t 1992) (“Reargument is
not designed to afford the unsuccessful party successive
opportunities to reargue issues previously decided
. . . .”); N. Am. Van Lines, Inc. v. Am. Int’l Co., 11 Misc.3d
1076(A), 2006 WL 908653, at **2-3 (N.Y. Sup. Ct. 2006)
(Fried, J.) (plaintiffs’ arguments in support of their
motion for reargument were “completely devoid of merit”
because they were not raised in the original motion).
Yet, that is precisely what 50 Murray seeks to do here.
Unable to identify any controlling law or relevant facts
that the Court overlooked, 50 Murray simply repeats two

6a
Appendix
arguments that it previously made and which the Court
rejected, and offers one new “constitutional argument”
that 50 Murray has never made to any court and which
is not appropriately considered for the first time on this
motion.
This Court has already thoroughly considered the
issues in this case and there is no reason for it to do so
again.
A. The Court Has Already Considered and Rejected
50 Murray’s Arguments Regarding RPTL § 421-g’s
Legislative History
Relying on many of the same facts and much of the
same case law that it previously cited in its brief on appeal,
50 Murray argues that reargument is appropriate because
the majority gave “short shrift to the legislative history and
context here.” (Reargument Br. at 7.) However, the Court
did not overlook any controlling precedent or relevant facts
regarding RPTL § 421-g’s legislative history. In fact, the
Opinion details RPTL § 421-g’s legislative history in both
houses of the Legislature, and acknowledges the dissent’s
point that “aspects of the legislative history can be read to
demonstrate” the Legislature’s intention that apartments
in RPTL § 421-g not be eligible for luxury rent decontrol,
“including a memorandum in support of the bill from the
Mayor’s Director of State Legislative affairs that predated the bill’s passage in the Assembly.” (Opinion at 10.)
And after considering that legislative history, and the
dissent’s examination and analysis of it, the Court rejected
50 Murray’s argument that RPTL § 421-g’s legislative
history determines the statute’s meaning.

7a
Appendix
The Court reached this conclusion only after extensive
discussion of RPTL § 421-g’s legislative history at oral
argument. (See 6/4/2019 H’rg Trans. at 28:14-15 (“JUDGE
STEIN: What about the supporters’ memorandum? . . .
What about the memorandum in support of the bill? . . .
That doesn’t say anything?”); id. at 27:18-20 (“JUDGE
WILSON: What is the rock crushing part of the Assembly
legislative history that supports your position?”); id.
at 29:17-18 (“JUDGE RIVERA: [Mayor Giuliani’s] own
official says these properties will be subject to rent
stabilization.”); id. at 26:20-24 (“JUDGE STEIN: Well, I
mean we understand . . . about the letters and who said
what and – and all of that. But the fact of the matter is, is
that the bill was not amended, was not changed, did – did
not clarify anything. . . . So it seems to me that maybe
they thought they had something they didn’t have.”); id. at
19:22-20:2 (“CHIEF JUDGE DIFIORE: So the purpose
[of RPTL § 421-g] is revitalization? MR. MCGUIRE: Yes,
right of this ghost town. . . . JUDGE RIVERA: But – but
it is possible that that’s not the only purpose, correct?”).1
The Court even asked 50 Murray whether legislative
history should trump a statute’s clear text, and 50 Murray
agreed that it should not:

1. The Court posed similar questions regarding RPTL
§ 421-g’s legislative history to the Plaintiffs-Appellants’ counsel.
See, e.g., id. at 13:3-7, 14:2-3 (“JUDGE FAHEY: More compelling
to me is, what did the sponsors say? I mean, what – what were
the committee reports from the legislative body? Those kind of –
that kind of legislative history seems to me is – is relatively more
authentic. . . . So we take to the next phase then, What about the
agency interpretations?”).

8a
Appendix
JUDGE RIVERA: If the legislative history is
completely at odds with the text, and the only
sensical reading of the text, which do we choose
between?
...
MR. MCGUIRE: Go with the text. You go with
the text.
(Id. at 31:13-25.)
To the extent 50 Murray is arguing that the Court was
required to consider RPTL § 421-g’s legislative history
in determining the statute’s meaning, the Court clearly
did so. Nothing was overlooked. 50 Murray may disagree
with the majority’s reading of that legislative history,
but its contention that the Court should have affirmed
the Appellate Division on the basis of RPTL § 421-g’s
legislative history was considered and discussed at length
at oral argument and in the Opinion. Moreover, the very
same arguments 50 Murray makes in its Reargument
Brief regarding RPTL§ 421-g’s legislative history were
previously made in 50 Murray’s brief in opposition to
this appeal. (50 Murray’s Opposition Br. at 4-11, 20-21,
41-51.) Reargument is not a means for a party to relitigate
arguments already made and rejected, Pro Brokerage, 99
A.D.2d at 971, and the Court should reject 50 Murray’s
attempt to do that here.

9a
Appendix
B. The Court Has Already Considered and Rejected
50 Murray’s Interpretation of the Words “Subject
to Control”
Next, 50 Murray argues that reargument is appropriate
because the Court improperly assumed that “the word
‘control’ in the phrase ‘subject to control’ cannot refer to
‘the antithetical concept of decontrol.’” (Reargument Br.
at 11.) Again, however, 50 Murray identifies no binding
precedent or relevant facts overlooked by the Court. Nor
can it. As noted above, the Court’s interpretation of RPTL
§ 421-g was a matter of first impression for the Court of
Appeals and no precedent bound the Court.
The entirety of 50 Murray’s argument rests on its
analogy to certain statutes that, 50 Murray says, use
the phrase “subject to control under” a chapter to mean
subject to all provisions of the chapter. This is neither
controlling precedent nor overlooked facts, and is no
basis for reargument. More fundamentally, 50 Murray’s
argument entirely misunderstands the Court’s Opinion.
The Court determined that the “legislature’s intention,
as reflected in the language of the statute at issue here,
is clear and unescapable” because of the Legislature’s use
of a “notwithstanding clause” to precede the reference to
“control under” the rent stabilization laws:
The statute does not say that eligible units shall
be fully subject to “the provisions” any local law
for the stabilization of rents. Put differently, the
notwithstanding clause of the statute evinces
the legislature’s intent that any “local law for

10a
Appendix
the stabilizations of rents” that would exempt
the unit from “control under such local law”
does not apply to buildings receiving RPTL §
421-g benefits, with the sole exception being for
cooperatives and condominiums.
(Opinion at 6.) As it did in its opposition brief, 50 Murray
simply ignores the importance of the notwithstanding
clause in RPTL § 421-g. The statutes to which 50
Murray refers in its Reargument Brief do not use a
notwithstanding clause to modify the phrase “subject to
control under.”
As important, the Court previously considered
extensive briefing from 50 Murray, as well as from
another landlord in a companion case (West v. 90 West,
et al.), and amicus curiae the Real Estate Board of New
York, each of which made the same argument that 50
Murray makes in its Reargument Brief—i.e. that the
phrase “subject to control” as used in RPTL § 421-g was
intended to subject apartments in RPTL § 421-g buildings
to the rent control and decontrol provisions of the rent
stabilization laws. After considering these arguments,
the Court rejected them, saying, “if accepted defendants’
proffered construction would simultaneously render
superfluous the entire notwithstanding clause and the
exception for cooperatives and condominiums. We reject
defendants’ suggestion that we read those provisions out
of the statute.” 2 (Opinion at 6-7.)
2. As with RPTL § 421-g’s legislative history, the meaning of
the phrase “subject to control” was discussed repeatedly during
oral argument. See, e.g., 6/4/2019 H’rg Trans. at 6:13-15 (“JUDGE

11a
Appendix
C. 50 Murray’s New “Takings” Argument Is Both
Procedurally Improper and Meritless
Finally, 50 Murray’s Reargument Brief asserts a new
argument, which it did not make to Supreme Court, the
Appellate Division, or in its brief or arguments on this
appeal. Relying heavily on the United States Supreme
Court’s decision in Stop the Beach Renourishment, Inc. v.
Fla. Dep’t of Envtl. Prot., 560 U.S. 702 (2010), 50 Murray
contends that the majority’s interpretation of RPTL
§ 421-g may deprive 50 Murray of “due process” and
constitute a “taking” under the U.S. Constitution. For
several reasons, this argument should be rejected.
To start, a motion for reargument must be limited to
fact or law overlooked in respect of arguments previously
made. It is well-established that “[r]eargument is not
FEINMAN: Well, what about the argument that subject to control,
control means govern, as opposed to, you know, rent control or rent
stabilization?”); id. at 18:1-11 (“JUDGE RIVERA: It’s a compelling
use of language that [appellant’s] counsel makes when he says
control . . . doesn’t mean decontrol. MR. MCGUIRE: I’m certainly
not saying there are no text-based arguments on – on behalf of
the position that my adversaries make.”); id. at 21:5-21 (“JUDGE
GARCIA: Counsel, why put that provision in at all . . . I mean,
they had an idea about putting that provision in – it seems fairly
clear from the statute – that in exchange for this benefit, there
was going to be some type of control over these apartments.”);
id. at 32:14-15 (“JUDGE FEINMAN: Why would they be talking
about decontrol, if its not controlled in the first place?”). Given this
background, it is difficult to understand 50 Murray’s argument
that the Court somehow overlooked any facts in respect of the
meaning of “subject to control” as used in RPTL § 421-g.

12a
Appendix
available where the movant seeks only to argue ‘a new
theory of liability not previously advanced.’” DeSoignies
v. Cornasesk House Tenants’ Corp., 21 A.D.3d 715, 718
(1st Dep’t 2005); see also William P. Pahl Equip., 182
A.D.2d at 27 (“reargument is not designed to afford
the unsuccessful party . . . opportunities . . . to present
arguments different from those originally asserted”);
Simpson v. Loehmann, 21 N.Y.2d 990, 990 (1968) (“A
motion for reargument is not an appropriate vehicle
for raising new questions.”). The fact that 50 Murray’s
“takings” and “due process” argument is being made for
the first time in its Reargument Brief is a sufficient basis
to reject it. 3
The substance of the argument is also simply
wrong. The United States Supreme Court has held
that the imposition of rent control or stabilization, like
the requirements imposed by RPTL § 421-g, are not a
“taking” of any property or right of the owners of the
affected apartments. See Yee v. City Of Escondido, 503
U.S. 519 (1992) (“When a landowner decides to rent
his land to tenants, the government may place ceilings
3. Citing 22 N.Y.C.R.R. § 500.24(d)—which permits a party
to raise a new legal argument on a motion for reargument only for
“extraordinary and compelling reasons”—50 Murray argues that
“special circumstances” warrant consideration of its constitutional
argument, despite that it has never before raised this argument.
(Reargument Br. at 16 n.1.) Not so. The Court’s Opinion, and its
correct interpretation of RPTL § 421-g, does not impose some
irreparable harm or injustice on 50 Murray, and 50 Murray’s
failure to raise a meritless constitutional argument at any stage
of this action is neither extraordinary nor compelling.

13a
Appendix
on the rents the landowner can charge or require the
landowner to accept tenants he does not like without
automatically having to pay compensation.”) (internal
citations omitted); see also Pennell v. City of San Jose,
485 U.S. 1 (1988). The Stop the Beach Renourishment
decision is not to the contrary; in fact, that case stands
only for the limited proposition that decisions of a state
judiciary (like those of other state actors) may be subject
to the Takings Clause. Moreover, the Supreme Court in
that case rejected property owners’ argument that a state
court’s decision upholding municipality rights to repair
beachfront property constituted an impermissible taking.
The majority’s Opinion here did not “take away” or
“deprive” 50 Murray of any right. Rather, it corrected 50
Murray’s misinterpretation of RPTL § 421-g and clarified
that 50 Murray never had a right in the first place to
luxury rent decontrol apartments in a building receiving
an RPTL § 421-g tax abatement. Moreover, 50 Murray
chose to subject its apartments to rent stabilization in
exchange for a substantial tax abatement. Thus, no right
existed that the Court might “take” or as to which 50
Murray was owed greater due process than it received
in this proceeding.
[REMAINDER OF PAGE LEFT
BLANK INTENTIONALLY]

14a
Appendix
CONCLUSION
For the reasons stated above, Defendant-Appellant 50
Murray Street Acquisition LLC’s Motion for Reargument
should be denied.
Dated: New York, New York
August 12, 2019
Respectfully submitted,
FRIEDMAN KAPLAN SEILER
& ADLEMAN LLP
/s/________________________________
Robert S. Smith
Christopher M. Colorado
Anil K. Vassanji
7 Times Square
New York, New York 10036
(212) 833-1100
Serge Joseph
HIMMELSTEIN, McCONNELL,
GRIBBEN DONOGHUE &
JOSEPH LLP
15 Maiden Lane
New York, New York 10038
(212) 349-3000

